EXTENSION OF TIME REQUEST FOR
A PETITION FOR WRIT OF CERTIORARI
No.
In The Supreme Court of the United States

Jocelyn A. Johnson, Petitioner
v.
Workers Compensation Appeals Board of the State of California,
Alexis Risk Management, Kemper Insurance, Broad Spire, Defendants
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE SUPREME COURT OF CALIFORNIA
To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Pursuant to 28 U.S.C. ยง2101(c) and Rule 13.5 of the Rules of this Court,
Petitioner Jocelyn A. Johnson prays for a 30-day extension of time to file her
Petition for Certiorari in this Court to and including March 13, 2020.
The final Judgment of the Supreme Court of California was entered on
November 13, 2019 and Petitioner's time to Petition for Certiorari in this Court
expires February 13, 2020. This application is being filed more than 10 days before
that date. Copies of the opinions and orders below are attached hereto. The
Jurisdiction of this Court is invoked under 28 U.S.C. ยง1257(a) and 28 U.S. C ยง2403
(a). This case involves the validity under the Due Process clause of the Fourteenth
Amendment and the California Constitution Article XIV ยง4 and Article III ยง 1. The
case presents important questions under the Constitution of the United States that
were determined adversely to Petitioner by the Court below. From mid-November
to present, Petitioner is experiencing acute exacerbation of a severe respiratory
disease which limits my ability to do research necessary to prepare the brief.

Respectfully submitted:

Jocelyn A. Jo nson
5329 Clark Street
Lynwood, CA 90262
(562) 502-0546

